Inspections Report I-97-06
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
OVERSIGHT OF BACKGROUND INVESTIGATIONS BY
THE
SECURITY AND EMERGENCY PLANNING STAFF
July 1997
Report Number I-97-06
TABLE OF CONTENTS
INTRODUCTION
SEPS' Mechanisms for
Monitoring
RESULTS OF THE INSPECTION
Preappointment Investigations
Review of New Hires at SEPS
Review of New Hires at
the USAOs
Recommendation
Reinvestigations
Recommendations
National Security Information
Clearances
Recommendation
APPENDIX I - Scope and Methodology
APPENDIX II - SEPS' Monitoring
Responsibilities
APPENDIX III - Justice Management Division's Response to Draft
Report - (Not available in hypertext at this time)
APPENDIX IV - Executive Office for United States Attorneys'
Response to Draft Report - (Not available in hypertext at this
time)
APPENDIX V - Office of the Inspector
General's Analysis of Managements' Response
INTRODUCTION
The purpose of our inspection was to assess procedures used by
the Justice Management Division's Security and Emergency Planning
Staff (SEPS) to oversee background investigations (BI) for
Department of Justice (DOJ) employees. As SEPS' monitoring of BIs
was identified as an area of significant concern in a prior
Office of the Inspector General (OIG) inspection report (see
Appendix I), one aspect of the current inspection was to evaluate
the progress made by SEPS to address this weakness. We used
information from the Executive Office for United States Attorneys
(EOUSA) and the United States Attorneys' Offices (USAO) to test
SEPS' monitoring of preappointment investigations,
reinvestigations (RI), and National Security Information (NSI)
clearances.
SEPS' Mechanisms for
Monitoring
The 1992 OIG inspection report concluded that the automated
system SEPS used at that time was inadequate to perform the
monitoring of BIs. The report indicated that the system did not
contain accurate, current, or sufficient information. As a result
of the 1992 report, SEPS replaced the automated system with the
Security Entry Tracking System (SETS). Because SETS also does not
contain accurate, current, or sufficient information, SEPS is now
going to replace SETS with a system called TRAQ.
Currently, SEPS maintains information on BIs in hard copy
personnel security files, in SETS, and in an additional automated
system called TRAQ. In the case of an EOUSA or USAO employee,
SEPS establishes a security file when the employee has an
approved waiver or, if no waiver is granted by SEPS, [ A waiver
for a new employee is not granted by SEPS if the employee is an
attorney (because then the waiver would be the responsibility of
OAPM) or if the employee and the USAO determine that the employee
will wait to defer entry on duty until the preappointment BI is
adjudicated.] when the completed preappointment BI is received
for adjudication. The security file contains hard copy
documentation of the adjudication of preappointment BIs and RIs
as well as of the granting of any NSI clearances. The security
files are the foundation for SEPS' automated systems.
The SEPS runs reports from its two automated systems, SETS and
TRAQ, to monitor BIs and RIs. Information in SETS is derived from
the National Finance Center Database and allows SEPS and
components to enter data related to BIs such as the date
completed, the date adjudicated, the date a waiver was approved,
and the date any NSI clearance was granted.
Since the 1992 OIG review, SEPS' Personnel Security Group has
reorganized and changed management. An official in the Personnel
Security Group indicated that SETS is unreliable, inaccurate, and
does not allow SEPS to produce the reports that it needs. The
SETS cannot be modified or corrected to provide the additional
capabilities required. He indicated that SETS has failed because
data was not correctly transferred when the data for SETS was
originally downloaded. As a result of these problems with the
existing automated system, SEPS is building an enhanced tracking
system called TRAQ.
The TRAQ is a barcode system, used by SEPS since January 1995,
that allows the Personnel Security Group staff to quickly locate
personnel security files and monitor the status of BIs and RIs.
The TRAQ system provides more information than does SETS and can
generate reports not available on SETS. The SEPS official
believes that TRAQ will solve the problems with SETS because the
TRAQ system was developed for SEPS' specific needs. According to
the SEPS official, the information in TRAQ will be reliable and
accurate because SEPS is entering data into TRAQ that has been
verified with information in the personnel security files as well
as information obtained from the components. In addition, the
report generation capabilities of TRAQ will also assist SEPS in
monitoring the BI process.
The SEPS is currently in the process of verifying and
transferring information from SETS into TRAQ. At the time of our
review, SEPS had completed data entry and record correction for
50 out of 66 DOJ components, [ SEPS has delegated responsibility
to the FBI, Drug Enforcement Administration, United States
Marshals Service, and the Immigration and Naturalization Service
for their respective preappointment investigations. These four
components are not included in the total number.] but had not
completed the entry of, nor verified, information for EOUSA and
the USAOs' records being transferred into TRAQ. A SEPS official
anticipates the TRAQ system to be fully operational by the spring
of 1997. Until that time, SEPS will continue to monitor BIs using
reports from SETS and TRAQ, verifying the information with the
information contained in the security files.
RESULTS OF THE INSPECTION
Preappointment Investigations
We conducted a review of selected personnel security files at
SEPS to determine whether preappointment investigations for
employees at EOUSA and the USAOs are being initiated by the
office and then adjudicated by SEPS. We also conducted site
visits at four USAOs and reviewed the personnel files of all
employees hired at these USAOs in fiscal year (FY) 1995 to
determine whether the employees had received adjudicated
preappointment BIs (see Appendix II).
Review of New Hires at
SEPS
For the SEPS file review, we obtained a list of all employees
hired by EOUSA and the USAOs in FY 1995 to select a sample.
Student volunteers were excluded from the sample because they do
not receive a BI if they are not employed for more than six
months. The sample was stratified into attorneys and support
staff to obtain a representative sample of each group. We then
used a statistical computer software program to generate our
sample. From the 525 attorneys hired in FY 1995, we randomly
selected an approximate 10 percent sample of 60 employees, and
from the 695 support staff hired in FY 1995, we randomly selected
an approximate 10 percent sample of 74 employees, for a total
sample size of 134. We later determined during our file review
that one member of our sample was a student volunteer who did not
require a BI, seven were separated employees, [ According to the
SEPS file room manager, files for separated employees are
retained by SEPS for six months and then are destroyed. We
determined that the files for these seven employees had been
destroyed after the appropriate six months and were therefore
unavailable for our review.] and two were contract employees, [
We determined that these two employees were contract employees,
who have different BI requirements. ] resulting in a sample size
of 124.
We reviewed the personnel security files and the data found in
SETS and TRAQ for the 124 employees to assess the BI process and
determine the request, completion, and adjudication dates for the
preappointment BIs; the request and granting dates of the
waivers; and the NSI clearance request and granting dates, when
applicable.
During our file review, SEPS was unable to locate files for
seven employees in our sample. SEPS officials verified that the
seven employees are in fact currently employed at EOUSA or the
USAOs. When we discussed the missing files with a SEPS official,
he could not provide an explanation for why SEPS did not have
security files for the seven active employees. He stated that
SEPS' migration from SETS to TRAQ should ensure that SEPS has
complete files for all active employees because SEPS is verifying
information that will be entered into TRAQ from the personnel
security files, SETS, and the component. Any missing files will
be identified by this verification process. When SEPS identifies
a missing file, SEPS creates a file and obtains the BI report
from the FBI or the OPM.
From the file and automated systems review, we determined that
SEPS had completed and adjudicated BIs for the remaining 117
employees in the sample whose security files we reviewed.
Furthermore, all 117 employees had data records in SETS and TRAQ.
In addition, we calculated the time involved for SEPS to process
employment suitability paperwork from the completion of the BI to
final adjudication. We determined that SEPS had reviewed and
adjudicated the BIs that did not contain derogatory information
within two weeks from the time SEPS received them.
We compared waiver dates for the 117 employees in our sample
with their respective entered on duty dates provided by the EOUSA
Personnel Staff to ensure that the employees received waivers [
According to EOUSA and SEPS officials, most EOUSA and USAO
employees are brought on board with a waiver prior to completion
of the preappointment BI. ] prior to starting work at the USAOs.
[ SEPS grants waivers for EOUSA and USAO support staff only; OAPM
grants waivers for EOUSA and USAO attorneys.] We found that only
one employee in the sample had not received the appropriate
waiver from SEPS prior to entering on duty. This employee's
waiver was granted four days after she officially entered on
duty. We interviewed an EOUSA Personnel Staff official who stated
that this employee should not have entered on duty prior to
receiving the waiver and that the USAO made an error in allowing
the employee to enter on duty prior to receiving notification
from the EOUSA Personnel Staff that the waiver had been granted.
We believe that EOUSA needs to ensure that the USAOs do not allow
employees to enter on duty prior to the USAOs' receiving
notification of the waiver or adjudicated BI.
Review of New Hires
at the USAOs
As part of our inspection, we conducted site visits at four
USAOs. We reviewed the personnel files of all employees hired at
these USAOs in FY 1995 -- 101 files total -- to determine whether
the employees had received adjudicated preappointment BIs. For
the ten USAO files in which we did not find documentation for an
adjudicated BI, we subsequently reviewed the SEPS security files
for the appropriate documentation.
During the course of the follow-up in the SEPS security files,
we found that SEPS was unable to locate files for three of the
ten employees. SEPS officials confirmed that these employees are
active employees at the USAOs. We also identified one file for an
active employee that contained no paperwork. We discussed these
findings with a SEPS official, but he was not able to provide an
explanation. As indicated previously, SEPS anticipates that the
verification process during data entry into TRAQ will identify
any missing files and allow SEPS to correct the problem.
Of the files we reviewed at the USAOs, we found that 100
employees had received adjudicated BIs, but we did not find
evidence of an adjudicated BI for one employee. However, we found
that, according to TRAQ, the OPM had completed the BI for this
employee, and a SEPS official stated that the BI had been
adjudicated. We reported to SEPS that we did not find
documentation in its security file to support that the BI had
been adjudicated, and SEPS obtained the appropriate documentation
for the file.
We calculated the time required for SEPS to process the
suitability paperwork for the 100 new hires with
adjudicated BIs, from the completion of the BI to final
adjudication. We found 24 instances in which it appeared that
SEPS took an unreasonable amount of time, between 3 and 10
months, to adjudicate the BIs. Upon further examination at SEPS,
we determined that most of these 24 files contained reports of
derogatory information that required resolution prior to
adjudication. However, we identified three cases in which there
was no indication of derogatory information to explain the
delayed adjudication. A SEPS official did not have an explanation
for this finding other than to state that sometimes BI files are
overlooked when SEPS has a large volume of files to review for
adjudication. According to the SEPS official, TRAQ will allow
SEPS to generate periodic reports that will provide the status of
BIs and RIs in process.
From the review of the sample of 124 security files at SEPS as
well as the review of 101 files from the four USAOs we visited,
we determined that overall the preappointment investigations for
FY 1995 hires were initiated by the office and then adjudicated
by SEPS in a reasonable period of time. In addition, the new
employees received waivers prior to entering on duty. We believe
that SEPS has made significant progress in its management of the
preappointment BI process since the 1992 OIG review.
Although our findings regarding preappointment BIs were
generally positive, we are concerned that SEPS could not locate
files for several active employees. The hard copy security file
provides the foundation for SEPS' two automated systems. Without
the security file, SEPS cannot ascertain that these employees
received adjudicated BIs or verify that these employees received
waivers prior to entering on duty. Given the state of transition
of the two automated systems, we believe that the security files
are the primary record and should be maintained accurately.
RECOMMENDATION
The Inspections Division recommends that the Assistant
Attorney General for Administration:
1.Instruct SEPS to verify that personnel security files
have been established and maintained for each EOUSA and USAO
employee.
Reinvestigations
At the four USAOs we visited, we reviewed the files of all 81
employees due for reinvestigation in FY 1995 as reported by SEPS
to determine whether the RI had been initiated. At one site, we
found that not all employees due for reinvestigation had
submitted the required paperwork to initiate the process. The
administrative staff at the USAO stated that these employees did
not consider the RI paperwork a high priority. The
administrative staff at the other three sites we visited also
reported difficulties with employees' completing the RI
paperwork. However, the RIs for these three offices had been
initiated. We believe that EOUSA should inform all employees of
the importance of completing RI paperwork in a timely manner.
Once RI paperwork has been completed, the USAO forwards it to
the EOUSA Security Programs Staff, who initiates the RI. USAO
staff at all four sites indicated that once an RI is initiated,
the USAO does not always receive notification that the RI has
been completed and adjudicated. Administrative staff at the four
USAOs stated that the USAOs do not usually follow-up on the
status of the RIs once the paperwork has been submitted to EOUSA.
EOUSA should provide notification to the USAOs of the adjudicated
RI.
We reviewed the USAOs' personnel files of the employees whose
RIs were initiated to determine whether the RIs had been
adjudicated by SEPS. For the files at the USAOs in which we did
not find documentation for an adjudicated RI, we subsequently
reviewed the SEPS files for the appropriate documentation. Of the
81 total files we reviewed, we found that all RIs had been
completed and adjudicated or that the file had documentation to
support that the RI was still in process due to the resolution of
derogatory information. We determined that SEPS had adjudicated
the RIs and in a timely manner.
We also analyzed the lists SEPS provided to EOUSA of all
employees due for reinvestigation in FY 1995 and FY 1996. We
compared the two lists to determine which RIs were not initiated
in FY 1995 and identified a backlog of 2,445 RIs. Of the 2,445
employees, we found that 1,199, or 49 percent, last received a BI
seven or more years ago:
· 21 employees last received a BI 14 or more years ago;
· 87 employees last received a BI 11-13 years ago;
· 260 employees last received a BI 9-10 years ago; and
· 831 employees last received a BI 7-8 years ago.
We also determined that 53 employees did not have RIs
initiated in FY 1995 although they possess NSI clearances. We
found the number of employees with NSI clearances and outstanding
RIs to be inconsistent with SEPS' guidelines that employees with
NSI clearances are one of the top priorities for RIs. When we
discussed this with a SEPS official, he indicated that these
instances would be identified the following year when the RI list
was generated. However, we believe that RIs for employees with
NSI clearances should be monitored more aggressively.
We are concerned that a substantial number of employees have
not received RIs in seven or more years and that employees with
NSI clearances are not being reinvestigated as required. While we
are aware that there is insufficient funding to allow for all RIs
to be initiated each fiscal year when due, we believe that there
are clear priorities for which employees should be reinvestigated
and that SEPS is not ensuring that RIs are initiated for these
employees.
During the inspection, we learned from SEPS and EOUSA
officials that although SEPS provides written guidance on
prioritizing RIs, SEPS does not actually prioritize the RI list.
EOUSA determines specifically which employees at the USAOs will
be reinvestigated, and SEPS does not review the list of employees
selected for RIs. The SEPS does not know which RIs actually have
been initiated by EOUSA until the RIs have been completed and
submitted to SEPS for adjudication. When SEPS runs the RI report
the following fiscal year, the Personnel Security Group could
determine which RIs had not been initiated the previous year. We
believe EOUSA's strategy for designating which employees are
initiated for RIs and criteria for allocating the RI resources
needs to be revised. In its efforts to allocate RI resources
among its district offices, higher priority RIs are sometimes
overlooked in district offices that have a disproportionate
number of RIs due. Consequently, RIs are not being initiated for
employees who have been overdue for a considerable period of time
and for employees who have NSI clearances.
We concluded that SEPS is not monitoring RIs sufficiently. For
the EOUSA and USAO employees in FY 1995, SEPS did not ensure that
RIs had been initiated for employees who are priorities for RIs.
We believe that SEPS should monitor more closely which employees
have RIs initiated and which employees receive RIs to ensure that
employees who are priorities for RIs receive them.
Also during our review, we found that in FY 1996 SEPS granted
NSI clearances to four employees with expired BIs who did not
have the requisite RIs. We found the granting of NSI clearances
to employees with expired BIs to be inconsistent with the
requirement of a current BI for NSI clearance approval. The SEPS
official stated that these NSI clearances were granted because
they were urgent situations. SEPS requires that the employee sign
a non-disclosure agreement and that the RI be initiated within 30
days. If the RI is not initiated within that time, SEPS will
cancel the NSI clearance. When we followed up on the status of
the RIs, we found that SEPS' records indicated that two RIs were
subsequently initiated and adjudicated, one RI was not done
because the clearance was no longer necessary and was cancelled,
and one clearance was granted in 1995 based on a BI done in the
latter part of 1989. We found that SEPS was tracking these cases
to ensure that RIs are initiated for employees granted NSI
clearances who have expired BIs.
RECOMMENDATIONS
The Inspections Division recommends that the Director,
Executive Office for United States Attorneys:
2.Instruct the United States Attorneys to inform employees
selected for reinvestigation of the importance of the
reinvestigation program and ensure that those employees complete
their RI paperwork as required.
3.Instruct the Security Programs Staff to allocate RI
resources among the USAOs in a manner that ensures the highest
priority employees receive reinvestigations.
The Inspections Division recommends that the Assistant
Attorney General for Administration:
4.Instruct SEPS to ensure that RIs are initiated,
completed, and adjudicated for the highest priority employees as
consistent with the annual guidelines for prioritizing
reinvestigations.
National Security
Information Clearances
In our examination of the sample of 117 new EOUSA and USAO
employees hired in FY 1995, we reviewed the files and automated
systems to determine which employees in the sample had been
granted access to NSI. We determined that only six employees had
received NSI clearances. We found documentation of the NSI
clearance approval in the security files for all six. However, we
found that one employee was not recorded in SETS as having an NSI
clearance. We notified SEPS of this discrepancy, and SEPS
corrected the data in SETS.
At the four USAOs we visited, we obtained lists of the
position sensitivity level for staff and lists of all staff with
NSI access. We also reviewed lists from EOUSA and SEPS of the
employees with NSI access at the respective USAOs. The EOUSA
Security Programs Staff informed us that it obtains lists of
employees with NSI access from SETS. During the inspection, we
learned that SEPS also runs its lists from SETS, and we found
that the lists from EOUSA and SEPS were, therefore, the same.
We found that two of the USAOs we visited rely on lists
provided by EOUSA to monitor which employees have NSI access. The
other two USAOs maintain their own lists derived from the
notification letters for NSI clearances that are sent to the
employees. We compared the latter two USAOs' lists with lists
from EOUSA. We noted many discrepancies between the USAOs' lists
and EOUSA's lists. For example, we found cases in which the
USAO's list included employees whose NSI clearances had been
cancelled and cases in which the USAO's list did not include all
employees who actually had clearances.
For the approximately 225 employees at the four USAOs reported
as having NSI access, we reviewed documentation from either the
USAO's personnel staff or the USAO's District Office Security
Manager to verify that NSI clearances had been granted by SEPS.
We learned that SEPS notifies the EOUSA Security Programs Staff
when an NSI clearance is granted by electronic mail and letter,
and EOUSA subsequently notifies the USAO and the employee. We
found that three of the USAOs could not provide documentation to
verify that some employees had been granted clearances for NSI
access. The USAOs reported that they did not always receive
notification of the NSI clearance, they did not maintain
notification letters in a central location, or they misfiled or
misplaced the copies of the letters.
We also reviewed the security files at SEPS for the
approximately 225 employees at the four USAOs reported as having
NSI access. We confirmed NSI clearance approval from SEPS for 212
employees at the four USAOs. However, as the USAOs reported
different information than that provided by SEPS and EOUSA, we
were unable to determine the total number of USAO employees who
have NSI clearances.
We also found two instances in which information in SETS
indicated an NSI clearance but there was no documentation in the
respective security file. In addition, we found four instances in
which SETS did not reflect the current NSI clearance for which
there was documentation in the file. We notified SEPS of these
discrepancies, and SEPS corrected the problems.
Our inspection revealed that SEPS monitors which employees
have NSI clearances through SETS. We found that SETS generally
contains accurate data regarding NSI clearances, although we
found some errors. Given that SEPS, EOUSA, and the USAOs
currently rely on lists generated from SETS to monitor NSI
clearances, we believe that it is imperative that SETS contain
accurate information. The migration to TRAQ may remedy the
discrepancies in data if information from the personnel security
files, SETS, and the component is properly maintained.
Finally, we believe it is the responsibility of each USAO to
monitor which USAO employees have been granted NSI clearances and
maintain supporting documentation. Maintaining accurate records
regarding employees with NSI clearances is essential to the
handling and safeguarding of classified information.
RECOMMENDATION
The Inspections Division recommends that the Director,
Executive Office for United States Attorneys:
5.Ensure that the United States Attorneys maintain accurate
records regarding employees who have NSI clearances.
APPENDIX I
SCOPE AND METHODOLOGY
This inspection was initiated as a follow-up review to a 1992
OIG inspection, Control and Monitoring of Background
Investigations by the Security and Emergency Planning Staff. The
1992 report contained several recommendations regarding SEPS'
oversight of BIs for Department employees. Specifically, the
multi-component review found that SEPS' control and monitoring
was not adequate; some employees had been in sensitive positions
for extensive periods of time without the required adjudicated
preappointment investigations; and a large number of DOJ
employees had not received required RIs. In addition, the review
found that SEPS could not account for a significant number of
personnel security files.
Our current inspection assessed procedures used by SEPS to
oversee BIs for DOJ employees, including the progress SEPS has
made since the 1992 review. We selected EOUSA and reviewed
information gathered from EOUSA and the USAOs to test the status
of SEPS' oversight of BIs, RIs, and NSI clearances.
We reviewed Executive Orders pertaining to personnel security
as well as DOJ and component policy and procedures for obtaining
preappointment background investigations, RIs, and National
Security Information clearances. We interviewed officials in the
Personnel Security Group at SEPS including the Assistant
Director, the Supervisory Security Specialist, and several
Security Specialists. We also interviewed officials in the Office
of Attorney Personnel Management, the EOUSA Security Programs
Staff, and the EOUSA Personnel Staff. On-site work included a
review of over 300 selected personnel security files at SEPS; a
review of SEPS' two automated tracking systems, SETS and TRAQ;
and visits to four selected USAOs--the Northern District of
Illinois, the Southern District of Florida, the Eastern District
of Louisiana, and the Northern District of California.
APPENDIX II
SEPS' MONITORING RESPONSIBILITIES
Preappointment Investigations
Executive Order (E.O.) 10450, Security Requirements for
Government Employment, charges the head of each department as
responsible for establishing and maintaining an effective program
to ensure that the employment and retention of any civilian
officer or employee with the department or agency is clearly
consistent with the interests of national security. Guidelines in
the Federal Personnel Manual, Chapter 732, state that as part of
the compliance with E.O. 10450, the head of each department is
responsible for designating position sensitivity for the
department's positions; initiating required preappointment BIs;
and operating a periodic RI program.
The DOJ Order 2600.2B, Security Programs and Responsibilities,
states that the DOJ's compliance with E.O. 10450 is accomplished
through the DOJ Personnel Security program. Under the Order, the
Department Security Officer (DSO) is responsible to the Assistant
Attorney General for Administration "for the development,
supervision, and administration of DOJ security programs. . .
." The DSO operates the Personnel Security program through
the Personnel Security Group of SEPS.
The DOJ Order 2610.2A, Employment Security Regulations,
specifies the personnel security program's requirements for
designation of DOJ positions in terms of suitability and
sensitivity and enumerates the preappointment investigation
requirements for DOJ positions. As set forth in the Order, all
positions in DOJ are to be designated as Special-Sensitive,
Critical-Sensitive, Noncritical-Sensitive, or Non-Sensitive.
Position sensitivity reflects the level of information to which
the employee may be permitted access. Special-Sensitive positions
may necessitate access to Top Secret NSI and require a
preappointment Special Background Investigation (SBI).
Critical-Sensitive positions may necessitate access to Secret or
Confidential NSI and require a full-field preappointment BI.
Noncritical-Sensitive positions may necessitate access to some
sensitive materials but do not involve access to NSI; these
positions require, at the minimum, a preappointment Limited
Background Investigation (LBI). Non-Sensitive positions do not
involve access to any sensitive materials and require, at the
minimum, a National Agency Check and Inquiries (NACI)
investigation. [ As defined in DOJ Order 2610.2A, the SBI,
full-field BI, LBI, and NACI investigations differ in the content
and extent of the investigation. ] Even if access for NSI is not
needed at the time an employee enters on duty, employees in
Special-Sensitive, Critical-Sensitive, and Noncritical-Sensitive
positions always receive the BI corresponding to position
sensitivity. [ EOUSA's District Office Security Handbook states
that positions within USAOs are normally designated as
Special-Sensitive.]
The DSO is responsible for ensuring that each DOJ employee
receives the appropriate preappointment investigation for the
applicable position sensitivity and that the investigation has
been adjudicated. DOJ Order 2610.2A requires that no employee be
permitted to enter on duty or be given a tentative entry on duty
date until after the completion and favorable evaluation of the
requisite investigation by the appropriate personnel processing
official and the DSO. The Order states that
"Special-Sensitive, Critical-Sensitive and Noncritical
Sensitive positions will be filled only by persons concerning
whom the prerequisite preappointment investigation has been
conducted which will permit a determination as to whether or not
the employment or retention in employment of the individual is
clearly consistent with the interests of national security and
the efficiency of service." In addition, "All
Non-Sensitive positions will be filled only by persons concerning
whom a NACI has been conducted and favorably adjudicated."
The DSO is the final authority for granting employment security
approvals and E.O. 10450 Clearances to all DOJ employees. SEPS is
responsible for adjudicating the preappointment BIs for the
Department's Offices, Boards, and Divisions, including EOUSA and
USAO employees. Adjudication involves the review and approval of
the BI, including the resolution of any questionable or
derogatory information.
The DOJ Order 2610.2A allows for exception to the
preappointment investigation requirement. The DSO can grant a
waiver to allow an employee to enter on duty prior to the
completion of the preappointment investigation. A waiver can be
granted only after a favorable review of the results of Federal
Bureau of Investigation (FBI) name and fingerprint checks, the
results of preappointment vouchering of former employers and
reference checks, and a statement that the preappointment BI has
been initiated. Under the DSO, SEPS grants waivers for EOUSA and
USAO support staff. The Office of Attorney Personnel Management
(OAPM) [ OAPM, under the Justice Management Division, is
responsible for the personnel actions for all non-Presidentially
appointed DOJ attorneys. OAPM coordinates and approves attorney
hirings and makes the determination for employment suitability
for new attorneys.] grants waivers for all Assistant United
States Attorneys (AUSA). Under DOJ Order 2610.2A, EOUSA is
responsible for ensuring that all EOUSA and USAO employees have
received waivers prior to entering on duty.
The Order states that investigations of candidates for
attorney positions will be conducted by the FBI. Investigations
for support staff positions at EOUSA and the USAOs are conducted
by the Office of Personnel Management (OPM).
Reinvestigations
The E.O. 10450 requires that each department maintain a
periodic RI program. Further, Executive Order 12968, Access to
Classified Information, stipulates that "Employees who are
eligible for access to classified information shall be the
subject of periodic reinvestigations. . . ." E.O. 12968
states that RIs shall be conducted with the same priority as
initial investigations. DOJ Order 2610.2A states that the
incumbent of every position within the DOJ shall be required to
undergo a RI five years after his or her appointment and at least
once each succeeding five years. The Order specifies the type of
RI required based on position sensitivity. As part of the
responsibilities delegated in DOJ Order 2600.2B, the DSO is
responsible for operating the DOJ's RI program.
Under the DSO, SEPS oversees the RI program for EOUSA and the
USAOs. Each fiscal year, SEPS provides EOUSA with a list of
employees due for reinvestigation. With the list, the DSO issues
a memorandum on the RI program that includes an explanation of
how the components should prioritize which employees receive RIs.
According to the DSO's memorandum, the first priority for RIs are
employees whose BIs are five years or older who have demonstrated
serious performance problems or whose conduct has resulted in an
arrest. The second priority for RIs are employees who have access
to NSI information whose BIs are five years or older.
Each fiscal year, DOJ components are appropriated specific
funds for RIs. For example, in FY 1995 EOUSA was allocated
$1,998,700 for RIs in EOUSA and the USAOs. However, SEPS
officials stated that the components are not allocated enough
funds to initiate all the RIs that are technically due. Thus,
each year DOJ components are responsible for prioritizing which
employees receive RIs based on the guidance in the DSO's
memorandum.
National Security Information Clearances
The E.O. 12968 states that "Eligibility determinations
for access to classified information shall be based on
information concerning the applicant or employee that is acquired
through the investigation conducted pursuant to this order or
otherwise available to security officials. . . . " E.O.
12968 also states that "access to classified information
shall be granted only to employees. . . for whom an appropriate
investigation has been completed." DOJ Order 2610.2A
delegates responsibility to the DSO or his designee to "make
trustworthiness determinations for eligibility for access to
classified information" in cases where positions are
sensitive and require access to NSI. The DSO is responsible for
monitoring which employees are granted access to NSI.
Requests for Top Secret, Secret, or Confidential NSI
clearances are made by the employee's agency to the DSO on an as
needed basis. Under the DSO, SEPS reviews the initial suitability
BI and any supplemental information on the employee regarding
personnel security when making the determination to grant an NSI
clearance. SEPS also ensures that an employee has a current
adjudicated BI prior to receiving an NSI clearance.
APPENDIX V
OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS
OF MANAGEMENTS' RESPONSES
On March 5, 1997, the Inspections Division sent copies of the
draft report to the Executive Office for United States Attorneys
and the Justice Management Division. Our analyses of the
responses from the components follow.
1. Recommendation 1 - Resolved-Open. We agree with the
corrective action. Please inform us when JMD completes the audit
of the files.
2. Recommendation 2 - Resolved-Open. We agree with the
proposed corrective action. Please provide us with documentation
indicating that EOUSA has instructed the United States Attorneys
to inform employees selected for reinvestigation of the
importance of the reinvestigation program and ensure that those
employees complete their RI paperwork as required.
3. Recommendation 3 - Resolved-Open. We agree with the
proposed corrective action. Please provide us with documentation
indicating that EOUSA has directed the reallocation of
reinvestigation resources to ensure that the highest priority
employees receive reinvestigations.
4. Recommendation 4 - Resolved-Open. We agree with the
proposed corrective action. Please provide us with documentation
that JMD has notified the components regarding the
reinvestigations program.
5. Recommendation 5 - Resolved-Open. We agree with the
proposed corrective action. Please provide us with documentation
indicating that EOUSA has implemented programs to ensure that the
United States Attorneys maintain accurate records regarding
employees who have NSI clearances.
#####